                                                                                                  I/
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM                                  11




Case Number: I05090052                                                                      Page 1,of 1



         An email was forwarded to the Office of Inspector General (OIG) from a Program ~ a n a ~ katr '
         NSF. The Program Manager had discussed this matter with the Office of General counsel2 for
         NSF who recommended that the matter be forwarded to OIG for disposition. Allegedly, the
         Principal Investigator ( ~ 1 on
                                       ) ~an award4used grant funds to pay for survey results which may be
         a violation of the Office of Foreign Assets and Control (OFAC) regulations regarding the
         importation of goods or services from Iran. The PI was suspended from duty pending an internal
         investigation into his actions. OIG initiated an investigation to determine if any NSF regulations
                                                                                                    ,
         were violated by the PI when importing survey results.

         A review of the preliminary report, voluntary disclosure (document sent to OFAC) and th;
         financial information sent to OIG revealed that the PI may have violated the OFAC regu1a:ions.
         After many telephone exchanges with various personnel5 at OFAC, we have determined that the
         PI "most likely" acted in "good faith" when interpreting the regulations; therefore, there ismno
         criminal violation at issue.

         Because OIG has determined that the PI acted in "good faith" in interpreting OFAC regulations,
                                                                                                       11
         we are satisfied that the NSF funds were not misappropriated.

         Accordingly, this case is closed.
                                                                                                        I




          1
            footnote redacted
            footnote redacted
            footnote redacted
            footnote redacted
          5
            footnote redacted


                                                                                                            'I

NSF 01G Form 2 (1 1102)
                                                                                                            I,
